<html>
<title> - MAKING IMPLEMENTATION OF THE NATIONAL AMBIENT AIR QUALITY STANDARDS FOR GROUND-LEVEL OZONE ATTAINABLE: LEGISLATIVE HEARING ON S. 263 AND S. 452</title>
<body><pre>[Senate Hearing 115-103]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-103

                 MAKING IMPLEMENTATION OF THE NATIONAL
                   AMBIENT AIR QUALITY STANDARDS FOR
                     GROUND-LEVEL OZONE ATTAINABLE:
                LEGISLATIVE HEARING ON S. 263 AND S. 452

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-298 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   



























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

             SHELLEY MOORE CAPITO, West Virginia, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
JOHN BARRASSO, Wyoming (ex officio)  THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 23, 2017
                           OPENING STATEMENTS

Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    42
Carper, Hon. Thomas, U.S. Senator from the State of Delaware.....    64
Flake, Hon. Jeff, U.S. Senator from the State of Arizona.........    65

                               WITNESSES

Cabrera, Misael, P.E., Director, Arizona Department of 
  Environmental Quality..........................................    66
    Prepared statement...........................................    69
    Responses to additional questions from Senator Carper........    94
Hakimi, Ahron, Executive Director, Kern Council of Governments...   101
    Prepared statement...........................................   103
    Responses to additional questions from Senator Carper........   110
Zeringue, Kyle, Senior Vice President, Business Development, 
  Baton Rouge Area Chamber.......................................   114
    Prepared statement...........................................   116
Garvin, Shawn, Secretary, Delaware Department of Natural 
  Resources and Environmental Control............................   119
    Prepared statement...........................................   122
    Responses to additional questions from Senator Carper........   127
Monica Kraft, Md, Past President of the American Thoracic 
  Society, University of Arizona College of Medicine.............   131
    Prepared statement...........................................   133
    Responses to additional questions from Senator Carper........   139

                          ADDITIONAL MATERIAL

Statements:
    Ozone Transport Commission...................................   153
    American Forest & Paper Association..........................   156
 
MAKING IMPLEMENTATION OF THE NATIONAL AMBIENT AIR QUALITY STANDARDS FOR 
GROUND-LEVEL OZONE ATTAINABLE: LEGISLATIVE HEARING ON S. 263 AND S. 452

                              ----------                              


                         TUESDAY, MAY 23, 2017

                               U.S. Senate,
         Committee on Environment and Public Works,
                                Subcommittee on Clean Air  
                                        and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room 406, Dirksen Senate Building, Hon. Shelley Moore Capito 
[chairwoman of the subcommittee] presiding.
    Present: Senators Capito, Inhofe, Fischer, Ernst, Carper, 
Whitehouse, Merkley, Gillibrand, Duckworth, Booker, and Carper.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. The hearing will come to order.
    I would like to welcome everybody to the EPW Subcommittee 
on Clean Air and Nuclear Safety.
    I would like to welcome the witnesses. Our first witness is 
someone we know very well. We will do our opening statements 
and then I will recognize you, Senator Flake. As we know, he is 
our colleague from Arizona, Senator Jeff Flake, a sponsor of S. 
452, the ORDEAL Act. We are glad to have him here.
    With that, I will proceed with my opening statement.
    Today's hearing in the Subcommittee on Clean Air and 
Nuclear Safety will focus on the challenges posed by the 
implementation of the National Ambient Air Quality Standards, 
the NAAQS, for ground level ozone.
    I will begin by recognizing myself for an opening statement 
and then move to Ranking Member Whitehouse for his statement.
    Roughly a year has passed since the subcommittee last had a 
hearing on the Ozone NAAQS and legislation seeking to address 
the uncertainty regarding implementation of the new standards. 
A year later, no legislative fix has been enacted and so that 
uncertainty continues.
    The EPA took 7 years to finalize implementing regulations 
of its 2008 standards. Nearly contemporaneously, it announced a 
revision, EPA did, of the standards to 70 ppb.
    Now State and local governments and private industry are 
faced with potentially abiding by two different standards at 
the same time.
    To that end, I request unanimous consent to submit for the 
record two letters: one signed by more than 200 trade 
associations from around the Country to congressional 
leadership in support of last year's version of S. 263, and a 
letter sent yesterday by the Association of Air Pollution 
Control Agencies to this subcommittee expressing concerns over 
the NAAQS review and implementation process.
    Is there objection?
    [No audible response.]
    Senator Capito. Hearing none, so submitted.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Capito. This is a multibillion dollar issue, as 
there are severe constraints on economic development in areas 
designated as in ``nonattainment.'' Perversely, in 
nonattainment areas it may be more profitable for a company to 
close a factory and kill jobs to create ozone offset credits to 
sell, than it would be to reinvest in or expand that facility.
    Furthermore, while this committee is improving our Nation's 
infrastructure, nonattainment status delays affected-area 
access to Federal support for transportation projects. I think 
one of our witnesses will address that issue.
    The bills before us today are meant to end the regulatory 
uncertainty and its impacts on the livelihood of Americans.
    S. 263, the Ozone Standards Implementation Act, which I 
introduced with Senators Cornyn, Fischer, Flake, Inhofe, and 
Manchin, would make needed reforms to the implementation of the 
standards, including requiring that the EPA promulgate 
implementing regulations at the time it finalizes the 
standards, not 8 years later.
    Where there is a range of levels that would protect public 
health, it would also require the EPA to consider whether the 
selected standard is technically feasible.
    S. 452, the Ozone Regulatory Delay and Extension of 
Assessment Length, the ORDEAL Act, introduced by Senator Flake 
with myself as a co-sponsor, and Senators Cotton, McCain, and 
Wicker, would, like my bill, move the EPA from a 5-year 
schedule of reviewing the standards to a 10-year schedule, 
affording enough time for compliance.
    The EPA has repeatedly failed to comply with the existing 
5-year schedule and, as the standards have gradually tightened, 
compliance has become costlier and more complicated. The longer 
schedule will give much needed time to comply.
    Different States and regions have unique challenges in 
meeting the ozone standards. Elevation, weather patterns, 
natural phenomena, traffic, varying levels and types of 
industrial activity, and interState and international transport 
of ozone and its precursors all impact ozone levels and vary 
significantly by jurisdiction.
    With all of those variables in mind, modeling is extremely 
complicated and is largely left up to the States and 
municipalities, at great cost. Western and mountain States are 
particularly burdened by elevated background levels of ozone.
    To achieve compliance, governments and industry need a 
clear, certain timeline for implementation of standards and a 
willing partner in the EPA. Up to now, we have not had that 
support in Washington.
    The EPA repeatedly misses the deadlines for finalization, 
2008 was not an outlier. One of these delays was 14 years. 
Implementation almost always takes longer than the 5-years 
required by statute.
    Now, just as the 2008 standards are being implemented, 
implementation regulations for 2015 are being drawn up. Areas 
that have just reached attainment status may once again be 
thrown into nonattainment, even as ozone levels nationally are 
trending downwards.
    Based on data collected between 2013 and 2015, the number 
of counties in nonattainment will increase from 197 to 214 
across 20 States and the District of Columbia. More than one-
third of the US population would live in areas facing 
regulatory sanctions for nonattainment.
    EPA has estimated the cost to comply with this new standard 
will be $1.4 billion annually for 49 States and $800 million 
annually for California, which would have until the 2030's to 
come into attainment.
    Ground-level ozone is already declining nationwide due to 
emissions controls. There is no need to rush into 
implementation of new standards when the trend lines are 
positive and the late implementation of 2008 has not allowed 
the compliance process to play out.
    Even a State like West Virginia, which is projected to be 
in attainment under both the 2008 and, narrowly, the 2015 
standards have raised opposition with the EPA over the 
tightening of the standards over the uncertainty and costs the 
standards generate on those grounds.
    The West Virginia Department of Environmental Protection 
has noted in communications to the EPA that ``the costs of 
achieving lower ozone concentrations increase exponentially as 
the standard is lowered, a policy decision as to the level at 
which the NAAQS should be set should not require the 
expenditure of billions of dollars to achieve health benefits 
that are not real, or at least extremely dubious under the 
science.''
    I request unanimous consent that this letter be entered 
into the record.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    Senator Capito. Our panel has a unique perspective. I 
welcome them. I look forward to the debate and hearing from our 
witnesses.
    I yield to Ranking Member Whitehouse for a 5-minute opening 
statement.
    [The prepared statement of Senator Capito follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
   
         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Let me thank Chairman Capito and other 
members of the subcommittee and our witnesses for being here 
today to discuss the EPA's 2015 National Ambient Air Quality 
Standards for ozone, colloquially known as NAAQS and two 
related legislative proposals.
    Ironically, this hearing comes the week that the American 
Thoracic Society, 16,000 strong, is here in Washington urging 
action to protect American lungs from climate change and 
pollution.
    In March, President Trump unveiled an Executive Order 
instructing agencies to review regulations that affect domestic 
energy production, which includes EPA's 2015 ozone standard. A 
few weeks later, EPA attorneys were granted a delay in the 
ozone standard's case now before the U.S. Court of Appeals for 
the D.C. Circuit.
    EPA stated it needed time as ``EPA officials in the new 
Administration will be closely scrutinizing the 2015 rule to 
determine whether the standard should be maintained, modified 
or otherwise reconsidered.''
    Despite all this administrative activity, we are here today 
talking about bills to delay implementation and formation of 
health standards for ozone and other pollutants. Why is that? 
The answer, I am afraid, is that there is neither the law nor 
the science to dismantle the ozone standard quickly through 
administrative action, so the fossil fuel industry is calling 
as usual on politics.
    The Clean Air Act mandates that NAAQS be set solely based 
on what is necessary to protect public health, specifically not 
on how it affects domestic energy production. The 2015 ozone 
standard was based on sound peer-reviewed science and the 70 
ppb standard was the high bound of the proposed 60 ppb to 70 
ppb range.
    EPA's independent science advisors, leading medical groups 
like the American Medical Association, the American Academy of 
Pediatrics, the American Thoracic Society, the American Lung 
Association and the American Heart Association, and public 
interest groups such as the NAACP, had all called for a 
stricter standard, closer to 60 ppb. Winning with 70 ppb was 
not enough for the fossil fuel industry.
    State compliance dates are linked to the severity of their 
pollution. Some States have upwards of 20 years to comply. The 
congressional Research Service compiled a preliminary list of 
nonattainment areas based on State recommendations.
    As you can see from this chart, West Virginia, Arkansas, 
Oklahoma, Nebraska, Iowa, Kansas, Mississippi and Alabama, the 
States represented by the Republicans on the subcommittee, all 
believe they are already in attainment of the 2015 standard. 
Why then delay ozone compliance for these States that are 
already in attainment?
    I would ask unanimous consent to enter the CRS material 
into the record, Madam Chair.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Whitehouse. Polluters never want to reduce their 
pollution and regularly attack the Clean Air Act based on 
overblown costs that always ignore the other side of the 
ledger, the public health and other benefits of reducing 
pollution.
    My State is on the other side of that ledger. We are 
downwind of the polluters. For years, tall, upwind, out-of-
State smokestacks have been launching ozone-forming pollution 
into the prevailing winds that carry it to the playgrounds and 
backyards of Rhode Island.
    Rhode Island parents should not have to tell their children 
they cannot play outside on what looks like a perfect summer 
day because it is a bad air day caused by out-of-State, upwind 
pollution.
    In evaluating proposed ozone legislation, I encourage 
members of the subcommittee to take both sides of the ledger 
into account, including the substantial public health benefits 
of reducing pollution.
    Madam Chair, I would like to ask unanimous consent that a 
letter from my Director of Environmental Management, Janet 
Coit, and four other northeastern States, be entered into the 
record in opposition to the proposed legislation.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Whitehouse. I have another opposition letter from 
22 public interest groups including the Appalachian Mountain 
Club, the National Parks Conservation Association, the Nebraska 
Wildlife Federation and the Wilderness Society be put into the 
record.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Senator Whitehouse. I have an opposition letter from 15 
State Attorneys General, the District of Columbia Attorney 
General, and the Acting Secretary of the Pennsylvania 
Department of Environmental Protection be put into the record.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Whitehouse. Finally, I have an opposition letter 
from 14 health and medical groups including the American Lung 
Association, the American Thoracic Society, the American Public 
Health Association and the Asthma and Allergy Foundation of 
America be put into the record.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
      
    Senator Whitehouse. Thank you, Madam Chair.
    Senator Capito. Before we proceed to Senator Flake, Senator 
Carper, the Ranking Member of the full committee, is going to 
introduce a member of the next panel. He asked if he could make 
a 4-minute statement which I granted him the right to do but if 
you would do your introduction at the same time, I would 
appreciate that.

             OPENING STATEMENT OF HON. TOM CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I am happy to do that.
    In 2015, the EPA finished its congressionally mandated 
review of the 2008 ozone health standard. After reviewing more 
than a thousand scientific studies, the EPA concluded that the 
2008 ozone health standard was too weak and no longer 
adequately protected public health.
    The EPA's rule is essentially a statement of fact, in order 
to protect the 6.3 million children with asthma, we need less 
ozone pollution in our air.
    Fortunately, many of today's biggest emitters of ozone 
pollution, such as old coal plants, are already scheduled to be 
cleaned up. This means the costs of compliance are not as high 
as they might have been two, four or 6 years ago.
    If Administrator Scott Pruitt and Congress keep the clean 
air protections on the books today intact, only 14 counties 
outside of California will not meet the new ozone standard by 
2025.
    I have a friend when you ask him how he is doing, he always 
says compared to what. How many counties are there outside of 
California in the United States. There are 2,949. The path that 
we are on, only 14 of those 2,949 will be out of compliance for 
ozone by 2025.
    However, instead of working together to help the remaining 
communities meet the new ozone health standard, this 
Administration, unfortunately, is doing the opposite. Not only 
is the Administrator working on rolling back Federal clean air 
protections that will put more communities at risk, the 
Administration's Fiscal Year 2018 budget, which was released 
today, slashes critical clean air resources to States and local 
governments.
    Congress is not doing much more to be helpful. The bills 
that are the subject of today's hearing direct EPA and the 
States to ignore the health science for 10 years before having 
to think about cleaning up.
    It is little like taking your children to the doctor to see 
if they are sick and the doctor waiting 10 years to call you 
back with the test results. Not acceptable to me, probably not 
acceptable to most of us. I think it is also unacceptable when 
EPA is doing it.
    These delays only serve to harm the 6.3 million children in 
this Country who have asthma today, many of them living in 
downwind States in the Eastern U.S. at the end of what many of 
us call America's tailpipe.
    I have one chart I want to refer to very briefly. The blue 
line up here, growth in gross domestic product, is almost 150 
percent. The bottom line is aggregate emissions, the six most 
common pollutants, during the same period of time since 1980, 
down by 63 percent. Those are pretty good trajectories for both 
of those.
    Our Nation's clean air protections have allowed our Country 
to make remarkable progress. We need to make some more of that. 
We still have some ways to go. As Robert Frost used to say, 
``We have miles to go before we sleep.''
    Before I introduce Shawn Garvin, the Secretary of the 
Department of Natural Resources and Environmental Control, I 
want to point out sitting right behind him is Ali Mirzakhalili. 
When Shawn testifies, you will see Ali move his lips. He has 
been our air guy forever.
    Shawn Garvin was just confirmed for the position of 
Secretary of the Department of Natural Resources and 
Environmental Control by our State Senate in March of this 
year. This agency is tasked with protecting and managing the 
State's natural resources and protecting public health and the 
environment.
    Shawn has years of experience serving the people of the 
first State and addressing clean air issues, especially the 
unique challenges that face downwind States like Delaware.
    I have more to say here but you have been very generous 
already with giving my opening statement. I would ask unanimous 
consent to enter the rest of my statement and my introduction 
of Shawn for the record.
    Thank you.
    Senator Capito. Without objection.
    Senator Carper. Shawn, welcome.
    Senator Capito. Thank you.
    On our first panel is our colleague from Arizona, Senator 
Flake. Senator Flake, you are recognized for 5 minutes.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
             U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Flake. Thank you, Chairwoman Capito and Ranking 
Member Whitehouse. I appreciate you allowing me to speak in 
support of the Ozone Standards Implementation Act of 2017 which 
I am pleased to join the Chairwoman in co-sponsoring. I believe 
it is a sensible piece of legislation.
    I also want to thank Chairwoman Capito and Ranking Member 
Whitehouse and the rest of the panel for allowing my 
legislation, the Ozone Regulatory Delay and Extension of 
Assessment Length, the ORDEAL Act. It is an ordeal just to get 
through that acronym I know.
    We all want clean air and as a Nation, we have come a long 
way since the Clean Air Act and its subsequent amendments. 
However, we all ought to be concerned about regulation that 
creates burdensome red tape for little or no appreciable 
benefit.
    I am happy to see Director Cabrera representing the Arizona 
Department of Environmental Quality on the witness panel today 
and providing the perspective of Arizona environmental 
regulators who have to implement these standards.
    I am also glad that Dr. Monica Kraft from Arizona is here 
to share her perspective as well.
    This issue is very important to my home State of Arizona. I 
have testified twice on the pressing need for ozone reform. In 
2015, the EPA essentially changed the rules in the middle of 
the game and finalized its rules on the ozone emissions 
standard at 70 ppb.
    After this rule came out, I heard from stakeholders 
throughout Arizona that it might be impossible for the State to 
meet this new standard. With costly compliance requirements, 
this onerous rule will burden counties and businesses already 
working in good faith to meet the previous standard.
    In my opinion, the rule demonstrates complete tone 
deafness. It is particularly detrimental to Arizona where we 
greatly feel the impact of EPA's failed air regulatory regime. 
This rule comes with great cost and with little to no benefit.
    In fact, Arizona's Attorney General joined other States in 
filing a lawsuit over the rule. I believe it is time for 
Congress to step in. That is why I was happy to work with 
Chairwoman Capito in introducing the Ozone Standards 
Implementation Act of 2017.
    Among other provisions, this legislation phases-in the 
implementation of the 2008 and 2015 ozone standards, extending 
the compliance date for the 2015 standards to 2025. This bill 
also includes a provision from the bill I have introduced, the 
ORDEAL Act, that would change the mandatory review of national 
ambient air quality standards from 5 years to 10 years. This 
would make a big difference.
    It is critical that States have the flexibility and time to 
implement their own innovative and proactive measures. That is 
why last year, I introduced a congressional Resolution to halt 
implementation of EPA's 2015 rule on ozone. We have to have 
time to be able to comply. We cannot change the rules in the 
middle of the game.
    I am pleased that Congress is focusing on legislative 
remedies and I will continue to support legislation and 
regulatory changes to lessen the impact of this devastating 
rule on Arizona communities.
    Thank you, Madam Chair and members of the subcommittee.
    Senator Capito. Thank you, Senator Flake. I appreciate your 
testimony.
    With that, I will ask the witnesses for the second panel to 
please join the table. Welcome to all of you. I am going to 
provide a brief introduction of all of you.
    Mr. Garvin has been introduced. I will skip over him in the 
interest of time.
    Our first panelist is Mr. Misael Cabrera, P.E., Director, 
Arizona Department of Environmental Quality. Thank you for 
coming. Next, we have Ahron Hakimi, welcome to you. He is the 
Executive Director, Kern Council of Governments in California. 
Next we have, Mr. Kyle Zeringue, Senior Vice President, 
Business Development, Baton Rouge Area Chamber in Louisiana. 
Last, we have Dr. Monica Kraft, MD, Past President of the 
American Thoracic Society, University of Arizona College of 
Medicine in Tucson.
    Mr. Cabrera, you have 5 minutes.

STATEMENT OF MISAEL CABRERA, P.E., DIRECTOR, ARIZONA DEPARTMENT 
                    OF ENVIRONMENTAL QUALITY

    Mr. Cabrera. Madam Chairman and members of the committee, 
my name is Misael Cabrera. I am the Director of the Arizona of 
Environmental Quality. I greatly appreciate the opportunity to 
offer testimony today.
    It is important to know that because ozone creating 
compounds can travel hundreds, if not thousands of miles, the 
new ozone rule punishes the victims of pollution, not just the 
polluters.
    Because of that, we appreciate the ORDEAL Act and the Ozone 
Standards Implementation Act of 2017 because they provide 
immediate relief to all States and some of Arizona's 
industrialized areas, allowing enough time for measures 
required by the 2008 ozone standard to fully take effect and 
air quality to improve.
    Irrespective of the implementation timeframe, however, the 
standard itself remains a challenge for Arizona. That is why we 
are the lead State challenging the standard in court. The Clean 
Air Act has five mechanisms to bring nonattainment areas into 
compliance or provide relief. All of them are inadequate for 
rural Arizona and likely other western States, again punishing 
the victims of pollution, not just the polluters.
    These mechanisms include State regulation, designation of 
rural transport areas, designation of interState or 
international transport areas, and demonstrating exceptional 
events. I will discuss each mechanism and its shortcomings in 
the context of a small county in rural Arizona.
    Yuma County is located in the southwest corner of Arizona 
bordered by both California and Mexico. The county contains a 
few small towns and the city of Yuma and has the highest 
unemployment rate of any metropolitan area in the U.S. as of 
July 2016 according to Bureau of Labor statistics.
    Yuma is predominantly an agricultural community and despite 
its lack of industrialization, Yuma County exceeds the 2015 
ozone standard. As you may know, volatile organic compounds and 
oxides of nitrogen react in the presence of sunlight to produce 
ozone.
    According to the U.S. EPA's 2014 National Emission 
Inventory, industrial sources account for only 2 percent of 
total volatile organic compound emissions and only 5 percent of 
NOx emissions within the county.
    All other sources are either naturally occurring or not 
regulated by the State of Arizona. Simply put, there are not 
enough emission sources that Arizona can regulate to achieve 
compliance with the new standard.
    In addition, Yuma County would not qualify for the rural 
transport mechanism because the Clean Air Act states that a 
rural area seeking relief cannot be adjacent to or include any 
part of a metropolitan statistical area.
    The cross-State air pollution rule does not apply to Yuma 
County. Although 20 percent of ozone concentrations in Yuma 
County emanate from California manmade sources, the rule only 
helps downwind nonattainment areas receive emissions reductions 
from upwind attainment areas. California has no emissions 
reductions to contribute downwind.
    Further, the exceptional events rule is of dubious value to 
Yuma County, if not the whole Country. Although Arizona has 
been a national leader in development of an exceptional event 
documentation for dust events, the process for documenting and 
receiving EPA approval for ozone exceptional events has not 
been explained, will be resource intensive and is difficult to 
predict.
    The best case scenario for Yuma is that our agency can make 
an international transport demonstration given that EPA's own 
modeling shows that international sources are responsible for 
up to 68 percent of ozone emissions affecting Yuma.
    Unfortunately, that demonstration can only occur after the 
3-year marginal attainment deadline is exceeded. Yuma would 
still have to comply with higher, nonattainment classification 
requirements, effectively limiting economic growth in a high 
unemployment area in perpetuity as a consequence of emission 
sources that originate primarily outside of Arizona or outside 
of Arizona's jurisdiction to control.
    To further exacerbate the issue of international transport 
demonstrations, the EPA's proposed implementation rule requires 
an area to implement reasonable, available control measures 
before EPA will review the demonstration. In short, the current 
ozone rules punish the victims of the pollution, not the 
polluters.
    For all these reasons, Arizona is challenging the 2015 
ozone standard in court and favors longer implementation 
timeframes. We also request that consideration be given to 
legislation that would allow rural and international transport 
demonstrations before areas are classified as nonattainment and 
before unnecessary regulation is initiated.
    Thank you. I am happy to answer any questions.
    [The prepared statement of Mr. Cabrera follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Capito. Thank you.
    Mr. Hakimi.

STATEMENT OF AHRON HAKIMI, EXECUTIVE DIRECTOR, KERN COUNCIL OF 
                          GOVERNMENTS

    Mr. Hakimi. Madam Chairman Capito, Ranking Member 
Whitehouse and esteemed Senators, and fellow veterans, my name 
is Ahron Hakimi. I am the Executive Director for Kern Council 
of Governments, a metropolitan planning organization in 
California's San Joaquin Valley.
    As a colonel in the Army Reserve's Logistics Corp, it is my 
honor and privilege to sit before you today offering testimony 
and answering your questions.
    For more than 30 years, I have worked as an engineer and 
manager in the transportation industry, including 25 years with 
the California Department of Transportation and 31 years in the 
Army Reserve.
    To begin, thank you for the opportunity to consider the 
Federal mandates under the Clean Air Act and potential 
improvements that may be warranted. What follows is an appended 
version of my full testimony which have provided to the 
committee staff.
    The Joaquin Valley encompasses eight counties and 25,000 
square miles, an area larger than 20 percent of the 50 States 
with a population greater than half the States at 4.1 million 
and poverty levels that meet or exceed the Appalachian region.
    Due to geography, topography and weather conditions that 
trap air pollutants, we continue to exceed the latest Federal 
ambient air quality standards for ozone and particulate matter 
of PM 2.5. This is even after imposing some of the toughest air 
regulations in the Nation and having reduced emissions by over 
80 percent, costing Valley businesses roughly $40 billion.
    Since the 1970's, EPA has established numerous ambient air 
quality standards for individual pollutants. The San Joaquin 
Valley air basin is subject to no less than four standards each 
for ozone and PM 2.5. Each of these standards requires a 
separate attainment plan that leads to multiple, overlapping 
requirements and deadlines.
    The pollution that industry, agricultural operations, cars 
and trucks release is at historic loads. Our residents' 
exposure to high smog levels has been reduced by over 90 
percent. Unfortunately, after all this investment and 
sacrifice, we have reached a point where we cannot attain the 
Federal standards even if we eliminated all Valley businesses, 
all agricultural operations or all the trucks traveling through 
our valley.
    Federal law specifically prohibits local jurisdictions from 
imposing tailpipe emission standards on mobile sources. The San 
Joaquin Valley cannot attain the Federal standards without 
significant emission reductions from these sources.
    Trans-boundary transport is another source over which we 
have no local control. It is delivered onshore in the spring 
and summer from prevailing tropospheric winds across the 
Pacific Ocean all the way from Asia.
    We believe that common sense and fairness dictate that 
Federal law include an overriding provision to prohibit 
sanctions on local regions and States where the inability to 
attain Federal standards is due to pollution from outside their 
regulatory authority.
    Right now, the Valley is in nonattainment for three ozone 
standards and three PM 2.5 standards. Each of these requires a 
separate air quality plan which leads to multiple requirements 
and deadlines.
    There are 51 different air quality tests each of the eight 
transportation planning agencies must pass. As a Valley, we 
could deliver more than $40 billion in transportation projects 
over the next two decades if we are not tripped up through a 
labyrinth of air quality tests requiring massive coordination 
among numerous regional, State and Federal agencies.
    These projects put people to work, move agricultural goods 
to market, move freight from northern to southern California, 
and help our citizens be mobile.
    In closing, we support a strong Clean Air Act with 
commonsense revisions that actually result in improved air 
quality. We need a way to significantly reduce the almost 
biennial updates with 51 tests that place our transportation 
funding constantly at risk.
    Commonsense amendments to the Clean Air Act will benefit 
the San Joaquin Valley and the Nation as a whole.
    Thank you. It has been my honor and privilege to address 
your subcommittee this afternoon. I will be happy to answer any 
questions I can.
    [The prepared statement of Mr. Hakimi follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Senator Capito. Thank you very much. Thank you for your 
service to our Country in the military.
    Mr. Zeringue.

  STATEMENT OF KYLE ZERINGUE, SENIOR VICE PRESIDENT, BUSINESS 
             DEVELOPMENT, BATON ROUGE AREA CHAMBER

    Mr. Zeringue. Thank you, Chairman, Ranking Member and 
members of this subcommittee. It is an honor to testify before 
you today.
    My name is Kyle Zeringue, Senior Vice President of Business 
Development for the Baton Rouge Area Chamber, BRAC. BRAC is the 
regional economic development organization over a nine-parish 
region in southern Louisiana, representing over 825,000 
residents.
    I stand before you today to express BRAC's support of the 
proposed Ozone Standards Implementation Act of 2017 and the 
ORDEAL Act of 2017 based on three points.
    One, the unimplemented standards have already cost our 
region tens of thousands of jobs and billions of dollars in 
capital investment and salaries. Second, the standards would 
impose hardships to many of the top performing metropolitan 
economies due to nonattainment status. Third, the vast majority 
of U.S. counties are on track to attain the EPA's 2015 
standards by 2025 with practices already in place.
    Foremost, BRAC fully supports cleaner air and environmental 
stewardship. For over 12 years, BRAC has played an active role 
in the Baton Rouge Clean Air Coalition. Thanks in large part to 
the Coalition's efforts in April 2014, the Baton Rouge Area 
attained the 2008 ozone standard of 75 ppb.
    Since then, the region has continued to decrease ground-
level ozone and improve air quality and health for its 
residents. Our commitment and success is proven by the EPA's 
re-designation of the Baton Rouge Area to attainment for the 
2008 standard in January 2016.
    Despite our efforts, the unimplemented 2015 standards have 
caused our region incalculable economic loss. Since 2014, BRAC 
has worked with a number of manufacturers seeking to make 
significant investments in the region.
    When the EPA first proposed lowering the ozone NOx in 
November 2014, numerous companies indicated that the proposed 
new standards, as they created market uncertainty and limited 
available emission reduction credits, influenced them to 
proceed elsewhere or to cancel their projects altogether.
    To quantify, the unimplemented standards have cost our 
region at least 3,570 direct jobs, $439.5 million in annual 
payroll and more than $33.9 billion in capital investment. 
Economic modeling completed by BRAC shows these projects would 
have brought in significant, indirect value as well, making the 
total loss of opportunity exceed 18,000 total jobs, $1.2 
billion in payroll and $46.2 billion in capital investment. 
This does not include opportunity cost.
    Should these bills fail to pass, the Baton Rouge area, in 
all likelihood, will once again be thrust into nonattainment 
status, thus eliminated from consideration on additional major 
investments.
    While I represent the Baton Rouge area, our region would 
not be alone in suffering economically. If the EPA were to 
implement the lower ozone standard at 70 ppb at the normal 
schedule, eight of the Nation's top 15 metropolitan area 
economies, as ranked by the Brookings Institution, would be 
relegated to nonattainment status.
    The cost associated with nonattainment creates significant 
risk to new investments and places additional burden on 
existing companies. The unrealistic schedule to implement the 
standards will continue to stifle growth and development in the 
top U.S. metro areas.
    While the EPA enacted stricter ozone standards 7 years ago, 
the agency effectively suspended implementation of their 
standards from 2010 to 2012. Because of this delay, States are 
behind in putting the current standards into effect, meaning we 
have yet to see the full impact of the last standard decrease.
    In fact, the EPA provided a map in a December 2014 webinar 
concerning the standards which showed that all but 14 U.S. 
counties will meet the new standard by 2025 with the rules and 
programs being successfully executed.
    Implementing this standard now when the EPA has itself 
identified that 241 counties would be in nonattainment is 
needlessly punitive and puts the U.S. economic health at risk.
    Madam Chairman, Ranking Member and members of the 
subcommittee, the Baton Rouge area's commitment to clean air 
proves that economic development and environmental stewardship 
does not have to be mutually exclusive.
    Policies that have significant adverse effect on local 
economies, as the impending NOx implementation schedule does, 
should be enacted with broader consideration. Therefore, BRAC 
strongly recommends these bills, which extend implementation to 
a realistically achievable timeframe, be passed to prevent 
additional loss of existing and future economic opportunity for 
the Baton Rouge area, as we as other top metro economies in the 
U.S. and to provide local and regional economies with a 
realistic timeline for attainment with the 2015 standards 
utilizing the successful practices already in place.
    This concludes my prepared statement. I thank you for your 
time. I will be pleased to answer any questions.
    [The prepared statement of Mr. Zeringue follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Capito. Thank you.
    Mr. Garvin.

 STATEMENT OF SHAWN GARVIN, SECRETARY, DELAWARE DEPARTMENT OF 
          NATURAL RESOURCES AND ENVIRONMENTAL CONTROL

    Mr. Garvin. Chairman Capito, Ranking Member Whitehouse, 
Senator Carper, and members of the subcommittee, I am Shawn 
Garvin. I serve as Delaware's Secretary of the Department of 
Natural Resource and Environmental Control.
    Thank you for the opportunity to testify on Making 
Implementation of the National Ambient Air Quality Standards 
for Ground Level Ozone Attainable: Legislative Hearing on S. 
263 and S. 452.
    Since the Clean Air Act was last amended 27 years ago, it 
has prevented literally hundreds of thousands of premature 
deaths, as well as averted millions of instances of morbidity, 
including, for example, heart disease, chronic bronchitis and 
asthma.
    The health benefits associated with this landmark 
legislation have far outweighed the cost of reducing pollution 
by more than 30 to 1. Moreover, we secured these health 
benefits over the same period that our Nation's gross domestic 
product has grown.
    I think everyone can agree the Clean Air Act is one of the 
Nation's most effective environmental statutes. Simply put, the 
Clean Air Act works.
    Accordingly, it is crucial that any comprehensive 
amendments to the Act be deliberative and thoughtful and 
ensures that the basic, important tenets of the legislation, 
protection of public health and welfare, remain intact.
    Unfortunately, after reviewing S. 263 and S. 452, I 
concluded these bills significantly weaken the existing Clean 
Air Act by delaying important deadlines and substantially 
altering the process for settling air-based, air quality 
standards.
    This results in undermining the health protection afforded 
by the Clean Air Act to our citizens, our environment and our 
future. Delawareans continue to struggle to bring healthy air 
to our citizens because we are downwind and subject to air 
pollution transport from facilities in other parts of the 
Country.
    The Clean Air Act requires States to obtain their ozone 
National Ambient Air Quality Standards, NAAQS, as exponentially 
as practicable, a responsibility that would be unduly impacted 
by these bills.
    Because the NAAQS are set to protect public health with 
adequate margin of safety and are based on the base available 
science, any delay in implementing NAAQS would prolong exposure 
by the public to unhealthy air.
    EPA's 2015 ozone NAAQS is expected to provide ample public 
health benefits across the United States, including preventing 
230,000 asthma attacks in children, 630 asthma-related 
emergency room visits, and 320 to 660 premature deaths annually 
by 2025, excluding California.
    Arbitrarily delaying implementation of the 2015 ozone NAAQS 
to 2025 would leave the 2008 standard which has been found to 
be outdated and insufficiently protective of public health as a 
prolonged, inadequate target for protecting health.
    This unnecessarily puts our citizens in great peril for 
suffering from pollution's adverse health and welfare impacts, 
including premature mortality.
    In addition, it does not accurately inform the public of 
the true quality of the air. The bill's provision to extend the 
review cycle for all NAAQS from 5 years to 10 years further 
exacerbates this problem.
    Experience has shown that NAAQS reviews rarely occur within 
the current statutory 5-year cycle. An extension to 10 years 
with additional analysis will likely result in a much longer 
review time and additional work by EPA that will extend well 
beyond 10 years.
    Thus, our State's ability to provide clean, healthy air as 
expeditiously as practicable becomes an unattainable goal. 
Indeed, the cumulative effect of delayed implementation and 
longer review cycles means that by the time EPA reviews the 
ozone standard again, the underlying science for the existing 
standard will be 20 years old. This is what Congress wanted to 
avoid when the Clean Air Act was amended.
    Allowing technological feasibility to be considered when 
setting NAAQS runs counter to the original core principles of 
the Clean Air Act. NAAQS should be set solely on the basis of 
health. This is now well settled law, including a unanimous 
opinion from the Supreme Court in the Whitman v. American 
Trucking Associations case.
    Once health-based standards are established, the Clean Air 
Act appropriately allows States to consider other factors such 
as cost and technological feasibility as they develop 
strategies to attain the standards.
    Allowing the consideration of technological feasibility 
when setting NAAQS will defeat the critical purpose of a 
health-based standard. The adverse harm from polluted air is a 
matter of science and has nothing to do with controlled 
technology costs.
    Furthermore, historical experience has shown that current 
considerations of technological feasibility are poor predictors 
of future innovation breakthroughs created by the 
technologically forcing nature of the Clean Air Act.
    The bill's provision regarding permitting also impairs the 
health of our citizens. Allowing air pollution sources to 
obtain permits under an outdated standard, whether because of 
an arbitrary delay as proposed for the 2015 ozone NAAQS, or 
because EPA has not issued rules or guidance imprudently 
punishes people who reside and work in areas with poor air 
quality and prolongs the inequity that exists between upwind 
and downwind States.
    If Congress is truly concerned about the timeliness of EPA 
rules, it should ensure that EPA has adequate resources to 
carry out its responsibilities.
    The bills also inappropriately address exceptional events 
by expanding the exceptional events criteria to include 
conditions occurring on days during which the highest pollution 
episodes actually occur.
    This makes setting a health-based ozone NAAQS a meaningless 
exercise by absolving EPA and the States from taking efforts to 
achieve it under the prevalent conditions leading to the worse 
air quality days.
    The intent of exceptional event criteria is to allow a 
State to discount NAAQS exceedances that result from one time, 
unpredictable and uncontrollable events, for example, a 
volcanic eruption or a wild fire.
    This short-sightedness would result in continuation of 
harmful exposure to polluted air while ignoring that a 
repeatable, predictable and preventable high pollution day 
occurred.
    Other provisions of the Act already address the issues that 
appear to be motivating this legislation. The Act's 
nonattainment area classification provides areas with more 
ozone pollution problems more time to comply.
    Other mechanisms allow States the flexibility to adjust the 
minimum pollution reduction requirements based on showing of 
the need, success in lowering ozone levels and the adoption of 
certain other measures.
    In addition, the Act's good neighbor provision requires 
States with emissions that contribute significantly to other 
States' ozone attainment to take action to reduce that 
contribution.
    Even with all the in-State emission improvements, we 
continue to struggle to meet the ozone standard. The answer to 
solving our ozone problem lies outside our boundaries and we 
need emission reductions upwind.
    We have lodged four separate petitions with the EPA 
requesting controls to be installed at power plants or for EPA 
to compel the power plants to operate their installation 
pollution control equipment.
    We have tried to prompt our upwind neighbors through the 
State Collaborative on Ozone Transport to reduce emissions but 
to no avail.
    In conclusion, the proposed legislation under cuts 
requirements of the Clean Air Act that are crucial to obtaining 
healthy air quality as expeditiously as practicable. Further, 
the proposed amendments change the intent of the Clean Air Act 
which is the swift protection of public health to one of delay 
and deprivation of public health protection.
    Delaware supports efficient and expeditious implementation 
of the National Ambient Air Quality Standard but opposes bills 
which would weaken public health protection. Revisions to the 
Clean Air Act may be warranted such as provisions to directly 
address climate change or strengthen the good neighbor 
provision to deal with air pollution transport, but changes in 
S. 263 and S. 452 are problematic because they take us backward 
in the protection of our citizens from public health and 
economic harms of air pollution.
    Thank you for the opportunity to testify. I am happy to 
answer any questions.
    [The prepared statement of Mr. Garvin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Capito. Thank you, Mr. Garvin.
    Dr. Kraft.

 STATEMENT OF MONICA KRAFT, MD, PAST PRESIDENT OF THE AMERICAN 
  THORACIC SOCIETY, UNIVERSITY OF ARIZONA COLLEGE OF MEDICINE

    Dr. Kraft. Chairman Capito, Ranking Member Whitehouse, 
Senator Carper and members of the committee, thank you so much 
for the opportunity to testify on behalf of the American 
Thoracic Society.
    As a clinician who actively treats patents with lung 
disease such as asthma and COPD and an asthma researcher who 
spent the majority of my academic career investigating causes 
and treatments for asthma, there are a few key points I would 
like to make.
    First, I think we would all agree that ozone is detrimental 
to the health of millions of patients with severe lung disease. 
As a lung disease specialist, I treat people with these severe 
respiratory diseases and with medications, trigger avoidance 
and other interventions. I work with patients to help them 
control their disease so they can feel in control of their 
lives. However, they cannot control the outdoor air quality.
    Having taken care of patients in areas of Arizona with 
specific air quality problems, I know from experience that 
ozone impacts my patients' health. We know it can cause asthma 
attacks, COPD exacerbations that can lead to emergency 
department visits, hospitalizations and even premature death.
    There are literally hundreds of high quality, peer review 
research articles showing that ozone exposure is bad for 
patients with chronic diseases such as asthma and COPD, but 
also for those with cardiovascular disease.
    Ozone is bad for healthy people too. That often gets lost 
in the discussion. We know that when young, healthy people are 
exposed to ozone, they also demonstrate declines in their lung 
function. It is not just the young, the ill and the frail that 
feel the detrimental effects of ozone; it is everyone.
    In addition to delaying the ozone standard, the bill 
actually forces the EPA to update or to delay updating science-
based initiatives for widespread and prevalent dangerous air 
pollutants. As the Clean Air Act has required for decades, the 
Nation needs to ensure that we set standards for our citizens, 
who are my patients every 5 years, which is what the law 
currently calls for.
    The current request to delay to every 10 years would force 
the Nation to set aside important new research that is 
currently identifying potential threats that air pollution 
presents to my patients and our citizens.
    The dangerous levels of deadly air pollutants like lead, 
particulates, and carbon monoxide remain in the air longer, 
needlessly exposing our citizens to the toxic health effects.
    The health impacts of the delay, in addition to what I have 
stated, are not trivial. In the 10-year review called for by 
this bill, a child will grow from a new borne to age ten. We 
know that lung development substantially increases after birth 
and exposure, especially in early life, to ozone and other 
particulates can actually interact with allergens and other 
processes to create asthma, to actually cause it.
    By delaying improvements in air quality, we are literally 
burdening our children with lifelong health issues.
    Also, I think the legislation would affect the people of 
Arizona, which is where I live. The prevalence of asthma in 
Arizona is higher than it is nationally, which is 10 percent. 
In Arizona, it is 15 percent and even higher in children.
    According to the Arizona Hospital Discharge Data base, 
there are between 30 to 35 emergency department and hospital 
visits for asthma every year, leading to about 130,000 
hospitalizations at a cost of $1 billion annually.
    According to the 2000 State of the Air Report by the 
American Lung Association, Phoenix ranks No. 5 of the 25 most 
polluted cities with regard to ozone and 21st out of 25 with 
regard to particulates.
    I take care of patients all around the region, in Tucson, 
Phoenix and the southwest. We routinely have to talk about how 
they should curb their activities and change their lives based 
on the air quality. Despite my best efforts, these patients 
still experience asthma attacks and COPD exacerbations a day or 
two after those high ozone days.
    Last, I think the bill fundamentally rewrites the Clean Air 
Act by directing the EPA Administrator to consider factors 
unrelated to health when setting national ambient air quality 
standards. As the Clean Air Act clearly states, the EPA 
Administrator must set clean air standards to protect public 
health, irrespective of estimated costs or assumed 
technological feasibility to clean it up.
    The Administrator does that following a very careful, 
scientific review. Even at 70 ppb, there still are health 
effects. Therefore, I think decreasing the standard from 75 ppb 
to 70 ppb actually is a meaningful difference.
    Fortunately, the approach has worked well to clean up the 
Nation's air for decades. Ozone levels are decreasing, which is 
good. However, I would propose to you that there are still 
detrimental effects even at the current levels.
    In fact, the measurements to create health-based standards 
have pushed the U.S. to develop new technologies, which also 
create jobs, save money and save lives. The current approach 
has been affirmed in the U.S. Supreme Court in the majority 
opinion written by the late Justice Scalia.
    As a clinician, a scientist and a citizen, I urge you to 
reject this legislation. Thank you very much.
    [The prepared statement of Dr. Kraft follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Senator Capito. Thanks to all of you.
    We will begin questioning. I will begin first.
    Senator Capito. Mr. Cabrera and Mr. Hakimi, both of your 
States, Arizona and California, have some similarities in your 
testimony. You used Yuma County and San Joaquin Valley as your 
examples. You stated no matter what you do or short of taking 
everyone off the road and ceasing any kind of industrial 
activity, you are still not going to meet the standards. Did I 
hear your testimony correctly?
    Mr. Cabrera. In Yuma County, the effects on vehicles, which 
only the Federal Government can enact, that has not been 
studied. We are sure that there is not enough industry in Yuma 
County in order to bring us back to attainment.
    Senator Capito. Mr. Hakimi.
    Mr. Hakimi. Madam Chair, yes, you are correct. We could 
move all the people out of the southern San Joaquin Valley and 
still not attain the current standard.
    Senator Capito. In your discussions with the EPA, what sort 
of recommendations do they give you to try to meet the 
standards?
    Mr. Hakimi. They do not have any recommendations.
    Senator Capito. Mr. Cabrera, they do not work with you to 
try to figure out alternative methods, give you some kind of 
longer timeline, or anything of that nature?
    Mr. Hakimi. We have the absolute longest timeline that is 
available to us but there is plenty of scientific evidence that 
background levels exceed the most current standards.
    Mr. Cabrera. EPA's normal relief mechanisms, which I 
outlined in my testimony which include rural transport areas, 
exceptional events, or international transport, do not do the 
trick for Yuma County. Simply put, Yuma County could be 
punished for the pollutions that others create.
    Senator Capito. Mr. Zeringue, you mentioned job losses and 
lost opportunities, lost tax dollars and so forth for not maybe 
making the next standard. What kind of punitive measures are 
out there?
    My understanding is that your Federal transportation tax 
dollars are tied to your attainment and nonattainment. Can you 
speak to that?
    Mr. Cabrera. I do not have direct knowledge on what funding 
mechanisms are going to support the Louisiana Department of 
Environmental Quality in their implementation.
    Senator Capito. Let me go to Mr. Hakimi.
    Mr. Hakimi. I can comment on that, Madam Chairman. Former 
Congressman Bill Thomas is in the room. He was able to get our 
region in Kern County almost $730 million. One of the 
consequences of not being in compliance or being a 
nonattainment area and having a lapse in attainment is our 
funds for transportation projects that increase capacity and 
reduce congestion in many cases are taken away.
    We are working on many projects in my county and in our 
valley which would reduce congestion. Yet, those are the types 
of projects, in many cases, that we would lose our Federal 
funds for when we have a conformity lapse.
    It is not if we have a conformity lapse in Kern County. If 
we maintain and stay on our current path, it is when we have a 
conformity lapse.
    Senator Capito. In reference to the bills, in my opinion, 
it does not undermine the Clean Air Act; it does not throw out 
the 2008 or 2015 standards or otherwise erode those existing 
protections.
    Mr. Garvin said that every 5 years this should be done and 
you have to make sure that EPA has the resources to do this. I 
would say that in the last 8 years, the EPA has had more than 
enough resources and they could not even get their regulations 
out for 8 years. You are already 3 years beyond the 5-year 
window at which we were supposed to be.
    Simply by pushing the timelines and making them tighter, 
hopefully making EPA responsive to the timeline, it is going to 
give you all the chance to react and react in a more reasonable 
way.
    The last thing I will say, before I turn to my Ranking 
Member, is this downwind issue we hear a lot on a lot of 
different pollutants. Not living in a downwind State but I 
guess I am living in an attainment State, as the Ranking Member 
reminded me, we have to find a way to help those downwind 
States really meet the challenges they have whether it is 
through certain allowances, I do not know. I hear this as a 
repeating theme that makes it impossible for compliance.
    I think if we could all work together to find a way to help 
those States, work with either the surrounding States or the 
regulators to try to figure out a way to bring those numbers 
down, I think it would be useful for a lot of the panelists I 
have heard over the last several years.
    Senator Whitehouse.
    Senator Whitehouse. Senator Capito, I would be delighted to 
work with you on that. There is kind of a mismatch between 
upwind polluter States and downwind nonattainment States. Many 
of us have seen that requiring attainment closer to the source 
of the pollution has improved the quality of the air.
    I think it is Director Garvin's testimony that shows very 
impressive results that have been achieved in many air 
pollution indices in the last decade as a result of this. As a 
result of that, Rhode Island is actually now in attainment, not 
because of anything that happened in our State but because of 
you all down in the Midwest. In the beautiful part of the 
Country, because there were controls put on the emissions that 
landed on Rhode Island.
    What worries me is when you have pockets where there is a 
problem area where you cannot generate attainment because of 
your own emissions not being the problem. Then the solution to 
that isn't to address the problem in the pocket area, but to 
take a whack across the board at the entire regulation that, 
overall, has produced the extraordinary results Director Garvin 
indicated.
    Just to be clear, Mr. Cabrera, you said the problem with 
this regime for your county is that is punishing the victims of 
pollution and not the polluters. Who are your polluters?
    Mr. Cabrera. California, Mexico and some China.
    Senator Whitehouse. A wall would fix that pollution problem 
with Mexico, a big wall.
    Mr. Cabrera. Not exactly, sir.
    Senator Whitehouse. Am I correct in looking at this 
legislation, Director Garvin, that while there are these pocket 
problems, which we were in for a while in Rhode Island where 
there was nothing we could have done to come into attainment 
within our borders, nevertheless, having these rules apply 
across the Country did produce a level of cleanup that actually 
brought us into attainment.
    Overall, it has worked for us. Rhode Island is now in 
attainment. It is rare actually when you hear the bad air day 
warning as you are driving into work in the morning. It used to 
be fairly frequent. I am really glad to not be having to hear 
that any longer. It made me mad as hell that we had to have 
that happen.
    In Delaware, you are another downwind State. Do you see it 
the same way?
    Mr. Garvin. Absolutely. Other than ozone, we are attaining 
in all of the other areas. Ozone is one of those places that we 
cannot control it within our State. We need support.
    Senator Whitehouse. The difference is it has worked for you 
because those national results have improved the conditions in 
the way that you described. It has not worked for the San 
Joaquin Valley and it has not worked for Yuma County, but it 
has worked for you?
    Mr. Garvin. That is correct.
    Senator Whitehouse. Dr. Kraft, first of all, thank you for 
your testimony. Thank you for your service as the head of the 
American Thoracic Society. You are in town now. I had the 
privilege of speaking at your gathering yesterday.
    Dr. Kraft. I saw you on the program.
    Senator Whitehouse. Here, we often see the industry coming 
in and saying, oh, boy, look how much it is going to cost us to 
clean up and this is a terrible cost. They never look at the 
other side of the ledger. They usually ignore it entirely. When 
they do not, they tend to underState it, call the claims 
dubious and so forth.
    Can you kind of lay out the case for what the health 
benefits side of the ledger looks like in air quality?
    Dr. Kraft. Absolutely. I am certainly glad I am able to do 
that.
    We are learning more and more about the effects of air 
quality in a number of arenas, especially with regard to lung 
disease, but also cardiovascular disease. I think that is a 
relatively newer finding. If you think about all of our 
citizens affected by one or both of those diseases, we are 
talking about a lot of people.
    As I mentioned, it is also healthy people that can be 
affected as well. As a runner myself, I avoid high ozone days 
because of the health effects that I know to be apparent. I 
have actually experienced them and I do not have lung disease, 
for instance.
    One of the worries I have on the air pollution side is take 
a case like asthma. Yes, we know that ozone can cause asthma 
attacks, COPD exacerbations, lead to hospitalizations and 
death, but I am worried that it can actually cause disease.
    There is some more recent research suggesting that 
especially in someone who has allergies, this interaction of 
poor air quality, the particulates, the ozone with the 
allergens at a young age can actually affect the immune system 
and lead to the presentation of the disease.
    If we think about a 10-year lag, that is worrisome to me 
because I think about those small children who are exposed at a 
very young age and have 10 years' worth of time to evolve. 
Usually, asthma presents itself early in life but then really 
becomes established by about five to 8 years of age.
    I see a very detrimental situation there as well, certainly 
with the development of the disease. We are actually 
contributing to this increased asthma prevalence that we see.
    Senator Whitehouse. Thank you, Doctor.
    My time has expired.
    Senator Capito. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chair.
    I was Mayor of Tulsa when we were out of attainment so I 
lived through that and it was pretty difficult. When things 
changed for the better, the misery lags on for a long period of 
time.
    There are two pieces of legislation from Senator Capito and 
Senator Flake, I am on both, I think, and both have one thing 
in common. That is the 10-year cycle as opposed to the 5-year 
cycle.
    Mr. Cabrera, let us talk a bit about if you think that is a 
good idea and why do you think it is a good idea?
    Mr. Cabrera. Madam Chair and members of the committee, the 
extension of time provides immediate relief to allow standards 
and controls that are already in place to, over time, reduce 
ozone concentrations. Having said that, an extension of time 
will not help Yuma County because they are not creating the 
pollution.
    Senator Inhofe. Let us find somebody it would affect then. 
How about you, Mr. Hakimi?
    Mr. Hakimi. Madam Chair and Senator, yes, it would. As I 
said in my testimony, there are over 51 plans with which the 
eight counties in the San Joaquin Valley have to comply that 
literally takes millions of dollars away from concrete and 
steel.
    By having new standards every 5 years, for us, that means 
we have to come up with a brand-new plan. It does not stop us 
from coming up with plans for all the previous plans. 
Currently, we are in non-compliance for 3 PM, 2.5 and 3 ozones. 
If we come up with another plan in 5 years, we will likely not 
be in compliance with that. That is eight times three more 
plans that we have to do.
    We spend literally millions of dollars and months, if not 
years, demonstrating and doing computer modeling to try to show 
how we obtain these new standards.
    Senator Inhofe. I have been here for a long time. I have 
chaired this committee for many years. Not a year goes by that 
there is not another idea and some of it might work. I think it 
was Senator Thune who last year was talking about until you 
take the 85 percent of those in nonattainment, you would not be 
able to have another standard. I do not know what happened to 
that except it never passed out of committee.
    The EPA did not issue guidance to the States for the 2008 
ozone standard until 7 years later. I would kind of like to 
know what kind of challenge does that make for you in terms of 
not having the guidance until 7 years after a standard is 
adopted? Do you have any comments about that, Mr. Zerinque?
    Mr. Zerinque. I think the delay in the implementation 
guidelines certainly put us at a disadvantage. The proposed 
2015 regulations and that lapse in time put undue burden, 
ambiguity and a certain level of risk on potential investment 
in our region. As a result, it cost us significant jobs and 
investment.
    Senator Inhofe. I would think it would be very difficult. I 
do not know how you would do it without guidance. I cannot 
think of any justification for not doing the guidance right 
after that.
    Mr. Zerinque, I would ask you the question because the EPA 
has indicated that counties in nonattainment will grow 
substantially under the 2015 ozone standard. The EPA modeling 
projects those counties would be in nonattainment only for a 
short period of time.
    Even if it is for a short period of time, isn't that still 
a problem? Doesn't the problem linger on after that period of 
time?
    Mr. Zerinque. I think the onset of those being in 
nonattainment presents a risk to companies that would look 
elsewhere for investment. I think the interesting thing is that 
the EPA, itself, identified in a webinar that they had 
completed in December 2014 that showed 14 of the U.S. counties 
would meet the new standard by 2025 with the rules and 
practices already in place.
    Senator Inhofe. Yes, but if there is someone out there 
looking for relocation, they are going to look to see what the 
history is going to be because they would be moving into an 
area that could have the same problem we had in Sand Springs, 
Oklahoma when I was Mayor of Tulsa. The problems do not go away 
with it.
    Mr. Zerinque. Correct.
    Senator Inhofe. Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Carper.
    Senator Carper. Again, our thanks to each and every one of 
you. Thanks so much for joining us.
    Dr. Kraft, I have a couple yes or no questions, if I could. 
Maybe we could review the basics.
    In layman's terms, national ambient air quality standards, 
as I understand it, are health standards. The EPA reviews the 
latest health studies to determine what level of ozone in the 
air makes us sick. Is that correct or not?
    Dr. Kraft. Yes.
    Senator Carper. It is my understanding that EPA's own 
Scientific Review Board determined that 75 ppb, the 2008 ozone 
standard, was not strong enough to protect public health as 
early as 2007, is that correct?
    Dr. Kraft. Yes.
    Senator Carper. As a doctor and clinician, do you consider 
either treatment costs or efficacy before diagnosing a patient?
    Dr. Kraft. I think of both. I think they both go into the 
thought process but certainly efficacy is the first order of 
business in order to effectively treat a patient. There is 
always the consideration of cost as the reality of the medical 
care we can provide but efficacy would be first.
    Senator Carper. On similar ground, do you think it makes 
sense for the EPA to consider cost when establishing a health 
standard?
    Dr. Kraft. I think, first and foremost, is the health of 
our citizens and my patients, first. I think that cost can 
enter into it but I think the priority needs to be, first, the 
health. Detrimental health can actually lead to increased cost 
as well. There are actually two sides to the financial aspect 
of it.
    Senator Carper. Do you think the public has a right to know 
the air pollution in the air might make them sick?
    Dr. Kraft. Absolutely. I think it is our obligation to 
inform them.
    Senator Carper. I just want to share something with my 
colleagues, you and the rest of the panel.
    Last Wednesday, some of us like to work out and one of the 
things I do a couple days of the week is I run. I usually run 
at home in Delaware, catch a train in the morning and come on 
down here, like Joe Biden, who Shawn used to work for, who did 
the same thing.
    Last Wednesday, I stayed here Tuesday night because of 
other obligations. I went out and ran on Wednesday morning. I 
like to run down to the Washington Monument and back. It is 
about five miles. You are a runner as I recall.
    I did not feel good that day. I got back to the gym and 
somebody told me that one of our colleagues, Tom Tillis, had 
been running in a race. They said he collapsed and had to have 
CPR, but it was not true. He had to stop running and basically 
stooped down until he felt better.
    I told my wife about it that night. She was in Delaware, 
and I think last Wednesday and Thursday, was in nonattainment 
for ozone. I thought, boy, that is strange because I frankly do 
not often feel that way. It was not all that hot but I just did 
not feel good.
    I spoke with Senator Tillis yesterday when we were on the 
floor. I asked him about it. I sent him a text message to see 
how he was doing. I think he was running a 5K race. He is a 
good athlete and in good shape but he said his legs were 
stronger than his lungs. I found that kind of interesting. 
Could you tell us what might have been happening to our lungs 
that day?
    Dr. Kraft. Absolutely. Ozone can interact with our cells, 
so we breathe in and obviously when we are running, our 
respiratory rate increases, we have a lot of air movement in 
and out. Usually we breathe in and out about 5 liters a minute; 
when we are running, it is more like 15 liters a minute, so it 
is almost double or triple.
    What can happen if there is a high concentration of ozone 
and also particulates is it can interact directly with the 
cells that line our lungs. They are very protective of these 
elements in the environment and can actually cause 
inflammation, redness and swelling, narrow the airways and also 
cause coughs, and sometimes wheeze.
    As you saw, it can even occur when you do not have a 
history of lung disease. That can be very disconcerting, 
especially if you have never had this sensation before. The 
patients I take care of, unfortunately, have this happen a lot.
    They have medications, but the medications do not always 
completely negate the effects. Yes, it can be a very 
significant reaction going on in the lungs.
    Senator Carper. Thank you.
    One of our witnesses, I think it was the Colonel, Navy 
salutes Army. Thanks for your service. He talked about 
basically if they shut down the economy, their State vehicles, 
plants, manufacturing, everything and still be out of 
compliance.
    That reminds me a bit of where we were in Delaware a few 
years ago, doesn't it, Secretary Garvin?
    Mr. Garvin. Yes.
    Senator Carper. What did we do about it? We shut everything 
down, didn't we, and we were still out of compliance?
    Mr. Garvin. We shut everything down. We made a lot of 
investments in power plants, the Indian River Power Plant and a 
number of other places, and focused on multi-pollutants and 
counted on some of our surrounding States and nationally making 
investments as well.
    As I said before, for ozone, it has been very beneficial 
but we still have the transport issue that we are not going to 
be able to address in our borders. One of the things we are 
talking about is if there is a reduction over kind of a broad 
range of areas, it is actually probably more beneficial to our 
State than having one facility which makes significant 
reductions.
    We are looking to ensure that there is leadership 
throughout the Country to make sure everyone is doing what they 
need to do which will benefit our State.
    Senator Carper. Thank you.
    Senator Capito. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Madam Chair.
    Mr. Garvin, are the top two sources of ground level ozone 
transportation and power production?
    Mr. Garvin. Yes.
    Senator Merkley. As we see in the transportation world, 
people are driving higher mileage vehicles or plug-in vehicles. 
Are we seeing a reduction in the ozone generated?
    Mr. Garvin. We have been, but in our State, we have also 
shown that even with a significant reduction in that area, 
transport is still going to keep us from getting to where we 
need to go.
    Senator Merkley. I am just trying to get a sense as we are 
seeing the auto industry evolve, whether that is helping us 
make this more achievable.
    Mr. Garvin. Yes, absolutely.
    Senator Merkley. Also in terms of burning, coal-fired power 
plants are being replaced in substantial amounts by gas-powered 
and also by renewable. Is that also reducing the amount of 
ozone being generated?
    Mr. Garvin. Yes.
    Senator Merkley. Those factors alone do not drive us to the 
point we need to get to. The existing trends do not drive us 
toward the goal being laid out by the EPA?
    Mr. Garvin. That is correct.
    Senator Merkley. Additionally, what would be the most cost 
effective things a community could look to, is it a faster 
reduction or change in power production, a change in the cars 
people drive, is it trucking or particular types of industries 
that generate a lot of the precursors that form ozone? What is 
the best bang for the buck to address this problem?
    Mr. Garvin. I think it is across the board. I think there 
is some simple stuff that is available now that we are not 
taking advantage of. We have some facilities upwind of Delaware 
which have control technologies on their plants but do not run 
them all the time which impacts us.
    They run them at peak times and at various times but if 
they ran them consistently, things that already in place, that 
would have a big advantage to us.
    Senator Merkley. That is one. Are there other most cost 
effective things that top the list? Counties and States are 
looking at what can we do and are concerned about the cost. I 
am trying to get a common sense of the things we really need to 
work on to make a difference.
    Mr. Garvin. Clearly renewable energy, investments in 
renewables, investments in more efficient vehicles that are 
using renewable energy, focusing on light duty trucks and cars 
and reducing the emissions coming from them, having that come 
online faster and not being pushed off longer would be 
beneficial.
    Senator Merkley. The EPA is looking at the question of 
changing the automobile efficiency standards and also possibly 
taking away the waiver for the California standards. Would that 
take us in the wrong direction in terms of ozone production?
    Mr. Garvin. Absolutely.
    Senator Merkley. Similarly, in terms of slowing down the 
transition to renewable energy?
    Mr. Garvin. Yes.
    Senator Merkley. Dr. Kraft, you are immersed in the medical 
side of this. Is there a point in terms of reducing the ground 
level ozone at which essentially the health benefits tend to 
flatten out as a curve? Where are we at that point? Are we 
still at a point where significant changes in ground level 
ozone creates significant health benefits and therefore, 
medical savings?
    Dr. Kraft. Right now we are talking about a movement of 75 
ppb to 70 ppb. The American Thoracic Society recommends 
consideration of 60 ppb. That really comes from the research 
being done from many of our own members, both in people as well 
as animal models and so forth to really understand how low do 
we need to go.
    Even at 60 ppb, it is not perfect. I think there are still 
health effects even at 60 ppb because you can imagine a 
population, we are very heterogeneous, so those of us who have 
lung disease, very low concentrations of ozone are going to 
cause problems or particulates.
    Therefore, it actually is difficult to give you a 
threshold. I think of some of my patients with more severe 
disease whereas others who are healthier may be able to 
tolerate higher levels. I would say we still have a way to go 
for the population as a whole.
    Senator Merkley. Thank you.
    Senator Capito. Senator Duckworth.
    Senator Duckworth. Thank you.
    As a mother, I believe that safeguarding communities 
against public health issues like smog and pollution must 
remain a top priority. I was actually participating in that run 
with Senator Tillis. I was in the wheelchair division. It was 
actually my Deputy Chief of Staff who called 911 and my staff 
watched while he received CPR.
    It is frightening but there was another runner who 
collapsed during that run and also needed CPR. There were two 
people who needed CPR on what was a really beautiful day.
    I am really concerned that efforts to reconsider 
regulations like the ozone standard could make it harder, not 
easier, for industry to do its job.
    My concern is compounded by the fact that the current 
Administration's budget cuts 30 percent of the EPA's budget and 
that millions of Americans with preexisting conditions may face 
higher health care costs if Trump Care passed in the Senate.
    This question is for Dr. Kraft. Can you please share with 
us the health benefits associated with the ozone standard and 
whether you consider asthma to be a preexisting condition?
    Dr. Kraft. We know that any severe lung disease, it does 
not have to be severe, mild to moderate when we talk about 
asthma or COPD, is affected by ozone levels, especially the 
levels we are talking about, 70 ppb, as we saw, 75 ppb, even 60 
ppb.
    As I mentioned, the lower we can go, obviously the better 
for health overall of the population. I think that certainly is 
a concern.
    I spoke earlier about the concern I have about the 
development of disease, that air pollution and ozone in 
particular, can actually interact with allergens and actually 
cause asthma. That is a real concern for me.
    I think many of us think of asthma as something that is 
mild and not a real problem. We probably all know someone with 
asthma, if we do not have it ourselves. There is actually a 
substantial fraction of the population which has pretty severe 
disease with morbidity and sometimes mortality.
    I tend to take care of the more severe segment of that 
population and can tell you, it can be a very serious disease.
    Senator Duckworth. It is. Indeed, it was very frightening 
to see and hear of someone like our colleague, who is 
incredibly fit, Senator Tillis, to be passed out on the ground 
receiving CPR. I saw the second runner who had also passed out 
on the ground and received CPR. It is deeply concerning.
    Efforts to delay, weaken or eliminate the ozone standard 
are justified by supporters as necessary to save money. 
However, there are expenses associated with taking care of sick 
kids. Dr. Kraft and Mr. Garvin, can you please share your 
thoughts on who would save money if the ozone standard is 
weakened and who would bear the cost of that profit? What are 
the costs of asthma to our economy?
    Dr. Kraft. I can speak to the cost on the health care side. 
I gave an example for the State of Arizona where I live. There 
are about 30,000 to 35,000 emergency department acute visits 
every year for asthma. The prevalence is actually higher than 
in the rest of the U.S.
    There are probably a couple reasons for that. Sometimes 
people with asthma come to Arizona because they think it will 
get better with the dry air but we have changed our environment 
actually quite a bit. I live in Tucson. We have a year-round 
blooming season now because we have all these plants.
    In Phoenix, there is a serious air quality problem, both 
ozone and particulates. Phoenix is ranked in the top 25 of the 
worst cities for both those categories. I worry a lot about 
that and the dust. The cost to the State of Arizona alone is $1 
billion annually.
    Senator Duckworth. Mr. Garvin.
    Mr. Garvin. Yes, Senator. The cost goes to a lot throughout 
the economy. You have lost school days and lost work days. We 
are dealing with a close to $400 million shortfall in the State 
of Delaware. One of the largest costs that we have is health 
care costs in the State Government.
    When you have a population that is facing pollution that 
causes health issues, there is a cost to not only government 
but to businesses, plus the other side of it which is the 
investments in addressing this pollution which actually helps 
to stimulate the economy.
    If you look at a lot of the pollution control systems with 
air and water, they came out of setting standards on what was 
good for health. The private sector and academic institutions 
found the ways to meet those standards which was stimulated the 
economy.
    There are benefits while you are protecting the health and 
also how it has a positive impact on the economy.
    Senator Duckworth. Do you support the 30 percent to the 
EPA's budget? How would affect the ability of State and local 
entities to do their jobs?
    Mr. Garvin. It will have a very significant impact. I speak 
on behalf of my State. I was actually handed something on my 
way in that showed me what the number was. We kind of heard 
what it might be. A lot of those are State implementation 
grants which help to support the States in discharging the 
delegation responsibilities we have from the Federal 
Government.
    If the budget is passed the way it is, it could have 
dramatic impacts on our ability in the State of Delaware to 
protect human health and the environment.
    Senator Duckworth. Thank you.
    I am out of time. I yield back.
    Senator Capito. Thank you.
    I want to thank all the witnesses for their testimony. I 
think that concludes our questions.
    The record will remain open for 2 weeks for members to 
submit any followup questions to the witnesses. I would ask if 
you could reply in a timely manner.
    This concludes our subcommittee hearing. Thank you.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

                                 [all]
</pre></body></html>
